   DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                       Office of Audit Services, Region V
                                                                       233 North Michigan Avenue
                                                                       Suite 1360
                                                                       Chicago, IL 60601



March 11, 2011

Report Number: A-05-10-00035

Mr. Michael B. Colbert
Director
Ohio Department of Job and Family Services
30 East Broad Street, 32nd Floor
Columbus, OH 43215

Dear Mr. Colbert:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Family Planning Services Claimed by Ohio From
October 1, 2007, Through September 30, 2009. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Mike Barton, Audit Manager, at (614) 469-2543 or through email at
Mike.Barton@oig.hhs.gov. Please refer to report number A-05-10-00035 in all correspondence.

                                             Sincerely,



                                             /James C. Cox/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Michael B. Colbert


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare and Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




FAMILY PLANNING SERVICES CLAIMED
  BY OHIO FROM OCTOBER 1, 2007,
   THROUGH SEPTEMBER 30, 2009




                            Daniel R. Levinson
                             Inspector General

                               March 2011
                              A-05-10-00035
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. In Ohio, the Department of Job and
Family Services (State agency) administers the Medicaid program and is responsible for
providing family planning services and reporting expenditures for Federal reimbursement.

The amount of funding that the Federal Government reimburses to State Medicaid agencies,
known as either Federal financial participation (FFP) or Federal share, is determined by the
Federal medical assistance percentage (FMAP), which varies based on a State’s relative per
capita income. The State agency’s FMAP ranged from 60.79-percent to 72.34-percent for claims
paid from October 1, 2007, through September 30, 2009.

Federal requirements also make provisions for various specified services to be reimbursed at
higher rates of FFP. Section 1903(a)(5) of the Act and 42 CFR § 433.10(c)(1) authorize
reimbursement at an enhanced 90-percent FFP rate for family planning services. Section 4270 of
the CMS State Medicaid Manual (the manual) states that family planning services include those
that prevent or delay pregnancy or otherwise control family size and may include infertility
treatments. Pursuant to the provisions of the manual, only items and procedures clearly
furnished or provided for family planning purposes may be claimed at the enhanced 90-percent
FFP rate. .

The State agency claimed $1,312,454 ($1,181,209 Federal share) for multiple procedure
sterilizations, when the sterilization was not the primary reason for the hospital admission,
during the audit period October 1, 2007, through September 30, 2009.

OBJECTIVE

Our objective was to determine whether the State agency properly claimed Medicaid family planning
sterilization procedures for enhanced Federal reimbursement for the period October 1, 2007, through
September 30, 2009.

SUMMARY OF FINDINGS

The State agency improperly claimed enhanced Federal reimbursement of $320,774 for family
planning services provided from October 1, 2007, through September 30, 2009. For all 325
claims reviewed, the State did not have a reasonable or a CMS-approved reimbursement
methodology for multiple procedure sterilization claims when the sterilization was not the
primary reason for the hospital admission. As a result, we are questioning the enhanced Federal


                                                 i
share for all 325 claims for family planning services claimed at the 90-percent Federal funding
reimbursement rate from October 1, 2007, through September 30, 2009.

These errors occurred because the State agency did not have adequate controls to ensure that
only Medicaid covered family planning services were claimed for the 90-percent Federal funding
reimbursement rate.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $320,774 to the Federal Government for the improper family planning costs
       claimed at the enhanced 90-percent Federal funding reimbursement rate from October 1,
       2007, through September 30, 2009; and

   •   work with CMS to formulate a reasonable methodology for reimbursement when
       submitting multiple procedure sterilization claims.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency disagreed with the findings and
asserted that the family planning costs claimed were both justified and reasonable. However, the
State agency concurred with the report recommendations.

The State agency’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State Agency’s comments, we maintain that our findings regarding the
reasonableness of the reimbursement methodology remain valid.




                                                ii
                                                  TABLE OF CONTENTS
                                                                                                                                      Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Medicaid Program .................................................................................................1
              Ohio’s Medicaid Program .....................................................................................1
              Medicaid Coverage of Family Planning Services .................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2
               Objective ...............................................................................................................2
               Scope .....................................................................................................................2
               Methodology .........................................................................................................2

FINDINGS AND RECOMMENDATIONS .............................................................................3

          FEDERAL REQUIREMENTS .........................................................................................3

          MULTIPLE PROCEDURE STERILIZATIONS .............................................................4

          CALCULATION OF OVERPAYMENT .........................................................................4

          RECOMMENDATIONS ..................................................................................................4

          STATE AGENCY COMMENTS.....................................................................................5

          OFFICE OF INSPECTOR GENERAL RESPONSE…………………………………...5

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Ohio’s Medicaid Program

In Ohio, the Department of Job and Family Services (State agency) administers the Medicaid
program and is responsible for providing family planning services and reporting expenditures for
Federal reimbursement. The State agency claimed $1,312,454 ($1,181,209 Federal share) for
multiple procedure sterilizations, during the audit period from October 1, 2007, through
September 30, 2009.

The amount of funding that the Federal Government reimburses to State Medicaid agencies,
known as either Federal financial participation (FFP) or Federal share, is determined by the
Federal medical assistance percentage (FMAP), which varies based on a State’s relative per
capita income. The State agency’s FMAP ranged from 60.79-percent to 72.34-percent for claims
paid from October 1, 2007, through September 30, 2009. Federal requirements also make
provisions for various specified services to be reimbursed at higher rates of FFP.

Medicaid Coverage of Family Planning Services

Section 1905(a)(4)(C) of the Act requires States to furnish “… family planning services and
supplies … to individuals of child-bearing age (including minors who can be considered to be
sexually active) who are eligible under the State plan and who desire such services and supplies
….” Section 1903(a)(5) of the Act and 42 CFR § 433.10(c)(1) authorize reimbursement at a 90-
percent FFP rate for family planning services.

Section 4270 of the CMS State Medicaid Manual (the manual) states that family planning
services include those that prevent or delay pregnancy or otherwise control family size and may
also include infertility treatments. In addition, this provision of the manual generally permits an
enhanced 90-percent FFP rate for the following items and services: counseling services and
patient education; examination and treatment by medical professionals pursuant to States’
requirements; devices to prevent conception; and infertility services, including sterilization
reversals.



                                                 1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency properly claimed Medicaid family planning
sterilization procedures for enhanced Federal reimbursement for the period October 1, 2007, through
September 30, 2009.

Scope

We reviewed family planning claims for sterilization services provided to Medicaid beneficiaries
from October 1, 2007, through September 30, 2009. We specifically reviewed the State’s
reimbursement methodology for claims totaling $1,312,454 ($1,181,209 Federal share) for
multiple procedure sterilizations, when the sterilization was not the primary reason for the
hospital admission.

We did not perform an overall assessment of internal controls for claiming costs for Federal
reimbursement. We limited our review of internal controls to gaining an understanding of the
State agency’s procedures for claiming Federal reimbursement for family planning services. We
performed fieldwork at the State agency in Columbus, Ohio, in September 2010.

Methodology

To accomplish our objective, we:

   •    reviewed Federal and State laws and regulations related to reporting expenditures for
        family planning services;

   •    held discussions with State agency officials related to State policies, procedures, and
        methodology for claiming Medicaid reimbursement for family planning services;

   •    obtained and reviewed claims data for family planning services with dates of service
        from October 1, 2007, through September 30, 2009;

   •    obtained and reviewed documentation related to sterilization services, including patient
        consent forms; and

   •    calculated the difference between the enhanced 90-percent FFP rate and the effective
        FMAP rate for all 325 multiple procedure sterilization services provided during the
        period October 1, 2007, through September 30, 2009.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                                 2
                          FINDINGS AND RECOMMENDATIONS

The State agency improperly claimed enhanced Federal reimbursement of $320,774 for family
planning services provided from October 1, 2007, through September 30, 2009. For all 325
claims reviewed, the State did not have a reasonable or a CMS-approved reimbursement
methodology for multiple procedure sterilization claims when the sterilization was not the
primary reason for the hospital admission. As a result, we are questioning the enhanced Federal
share for all 325 claims for family planning services claimed at the 90-percent Federal funding
reimbursement rate from October 1, 2007, through September 30, 2009.

These errors occurred because the State agency did not have adequate controls to ensure that
only Medicaid covered family planning services were claimed for the 90-percent Federal funding
reimbursement rate.

FEDERAL REQUIREMENTS

Federal cost principles at 2 CFR pt. 225, Cost Principles for States, Local, and Indian
Tribal Governments (formerly Office of Management and Budget Circular A-87),
Appendix A, § 225(C)(2), state:

       Reasonable costs. A cost is reasonable if, in its nature and amount, it does not
       exceed that which would be incurred by a prudent person under the circumstances
       prevailing at the time the decision was made to incur the cost. The question of
       reasonableness is particularly important when governmental units or components
       are predominately federally funded. In determining reasonableness of a given
       cost, consideration shall be given to: ….

       e. Significant deviations from the established practices of the governmental unit
       which may unjustifiably increase the Federal award’s cost.

The CMS Financial Management Review Guide Number 20, entitled Family Planning Services
provides specific instructions for performing financial management reviews of claims for family
planning services. The guide refers to a 1980 policy memorandum regarding CMS policy in
allocating family planning inpatient hospital costs where multiple procedures are performed.
That CMS policy states that when multiple procedures are performed during a single hospital
stay and submitted as a single inpatient claim, a State claim for Federal reimbursement must
distinguish between those costs attributable to family planning (eligible for 90-percent Federal
reimbursement) and those costs attributable to other covered services (reimbursed at the regular
Federal medical assistant percentages). CMS does not require a specific allocation method, but
does require that the reasonableness of the methodology be determined on a State-by-State basis.
Additionally, Departmental Appeals Board Decision No. 1284 states the critical language is that
the method adopted by a state must reasonably serve to claim the appropriate rate of Federal
reimbursement. The Decision goes on to state that without a reasonable method to make this
allocation properly, the State is not entitled to Federal reimbursement at the enhanced rate.



                                                3
Section 4270 of the CMS State Medicaid Manual, generally permits a 90-percent rate of Federal
reimbursement for medically approved methods, procedures, pharmaceutical supplies, and
devices to prevent conception. Pursuant to the provisions of the manual, only items and
procedures clearly furnished or provided for family planning purposes may be claimed at the 90-
percent FFP rate.

MULTIPLE PROCEDURE STERILIZATIONS

To comply with CMS requirements regarding family planning services provided along with
nonfamily planning services, the State developed a methodology to determine the Federal share
of inpatient hospital claims containing multiple procedures (e.g., delivery and sterilization)
performed during the same inpatient stay. To determine the amount of inpatient costs
attributable to family planning services, the State multiplied the cost of the beneficiaries’
Medicaid covered services by 31.43-percent. That amount was reimbursed at the enhanced 90-
percent Federal reimbursement rate.

The use of the 31.43-percent rate is not reasonable since there is no support for the valuation and
there is no evidence that CMS approved the State’s methodology. In addition, the average
amount of the State’s claim is very high when compared to a normal sterilization claim. During
our audit period, the non-multiple procedure sterilization claims averaged $108 in Federal
reimbursement per claim, while the multiple procedure inpatient hospital claims averaged $3,634
per claim. Several multiple procedure claims submitted by the State were reimbursed at more
than $15,000 per claim.

CALCULATION OF OVERPAYMENT

Due to the unreasonableness of Ohio's methodology for submitting reimbursement for family
planning hospital stays in which sterilization was not the primary reason for the stay, we are
questioning $320,774. The questioned amount represents the difference between the enhanced
90-percent FFP rate claimed by the State agency and the effective FMAP rate for all 325
multiple procedure sterilization services provided during the period October 1, 2007, through
September 30, 2009.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $320,774 to the Federal Government for the improper family planning costs
       claimed at the enhanced 90-percent Federal funding reimbursement rate from October 1,
       2007, through September 30, 2009; and

   •   work with CMS to formulate a reasonable methodology for reimbursement when
       submitting multiple procedure sterilization claims.




                                                4
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency disagreed with the findings and
asserted that the family planning costs claimed were both justified and reasonable. However, the
State agency concurred with the report recommendations.

The State agency’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State Agency’s comments, we maintain that our findings regarding the
reasonableness of the reimbursement methodology remain valid.




                                               5
APPENDIX
                    APPENDIX: STATE AGENCY COMMENTS
                                                                                    Page 1 of 2


Ohio                  Department of
                      Job and Family Services
                     John R. Katich. Governor 

                     Michael B. Colbert. Director 




February 25, 2011

James C. Cox, Regional Inspector General for Audit Services
Office of Audit Services Region V
233 North Michigan Ave
Suite 1360
Chicago, IL 60601

Report Number: A-05-10-00035

Dear Mr. Cox:

As requested in the OIG/OAS report listed above, please accept this letter as the State of
Ohio's response to the Family Planning draft report A-OS-l 0-0003 S. Please include our
official response as part ofthe final report as attacrunent A. The State of Ohio concurred
with the summary of findings listed in the report.

Please contact Christina Helm at 614-466-8364 or Christina.He1m@jfs.ohio.gov should
you have any questions.


Sincerely,




Edna Frezgi, Chief Fiscal Officer
Ohio Department of Job and Family Services

Cc: Michael B. Colbert, Director, ODJFS
    Michael McCreight, Assistant Director, Health and Human Services, ODJFS
    Lewis George, Chief Legal Counsel, ODJFS
    John McCarthy, Director, Office of Ohio Health Plans, ODJFS
    Cynthia Callender-Dungey, Assistant Deputy Director, ODJFS




                                       30 East Broad Street
                                      Columbus, Ohio 43215
                                           jfs.ohio.gov

                     An Equal Opportunity Employer and Service Provider
                                                                                   Page 2 of 2



Recommendation #1: 

The State Agency(ODJ}'S) refund $320,774 to the 'Federal Government for the 

itnproper family planning costs claimed at the enhanced 90-percent Federal funding 

reimbursement rate from October 1,2007, through September 30, 2009. 


Recommendation #2: 

The State Agency (ODJFS) work with eMS to formulate a reasonable 

methodology for reimbursement when submitting multiple procedure 

sterilization claims. 


ODJFS Response: 

The Ohio Department of Job and Family Services (ODJFS) is the single-state agency 

which administers the Medicaid program in Ohio. As such, ODJFS is responsible for 

providing family planning services and reporting expe~lditures for Federal
reimbursement. During the period from October 1, 2007 through September 30, 2009
ODJFS claimed $1,312,454 ($1,181,209 Federal share) for multiple procedure
sterilizations.

Childbirth delivery and sterilization performed during the same inpatient hospital stay is
an example of multiple procedure sterilization. To detennine the amount of inpatient
costs attributable to family planning services, and thus eligible for an enhanced 90­
percent Federal Funds Participation rate, OOJFS mUltiplied the cost of the beneficiaries'
covered services by 31.43 percent.

The Office of Inspector General (OIG) has taken issue with this 31.43-percent rate as
being unreasonable because (1.) there is no support for the valuation, and (2.) there is no
evidence that the Centers for Medicare and Medicaid Services approved this
methodology. Consequently, the OIG is questioning $320,774 in costs submitted at the
enhanced 90-percent federal funding rate.

The OrG has recommended that OOJFS (1.) refund $320,774 to the Federal Government
for improper family planning costs claimed, and (2.) work with CMS to formulate a
reasonable methodology for reimbursement when submitting multiple procedure
sterilization claims.

Although OOJFS disagrees with the findings and continues to assert that the family
planning costs claimed were both justified and reasonable, ODJFS will concur with the
recommendations of the OIG.

OOJFS will: 1.) refund $320,774 to the Federal Government for improper family
planning costs claimed, and (2.) work with CMS to formulate a reasonable methodology
for reimbursement when submitting multiple procedure sterilization claims.
